November 15, 2019

Orrick, Herrington & Sutcliffe LLP

By Hand Delivery & Electronic Filing

Columbia Center
1152 15th Street, N.W.
Washington, DC 20005-1706
+1 202 339 8400

Mr. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543

Re:

orrick.com

Robert Loeb

E rloeb@orrick.com
D +1 202 339 8475
F +1 202 339 8500

Monroe County Commission v. A.A. Nettles, Sr. Properties Limited, et al., No. 19-386

Dear Mr. Harris:
I am new counsel of record for Respondents A.A. Nettles, Sr. Properties Limited and Eula
Lambert Boyles in the above-captioned matter. The petition for a writ of certiorari in this case was
filed on September 23, 2019. On October 11, 2019, the Court called for a response to the petition.
On October 14, 2019, Respondents sought and were granted an extension of 30 days. With that
extension, the response to the petition is currently due December 12, 2019.
Pursuant to Rule 30.4, Respondents respectfully request that the time for filing a response to
the petition be extended by an additional 30 days. If the requested extension is granted, the response
would be due on Monday, January 13 (January 12 is a Sunday). Respondents request the additional
30 days because undersigned counsel of record was just retained and needs the requested time to
analyze the record and issues, consult with the clients, and prepare the response. The additional time
is also required due to pre-existing obligations in other matters. These include, among other things:
appellant’s opening brief in Johnson & Johnson, et al. v. Leavitt, No. A157572 (Cal. App.), due on
December 27, 2019; and an amicus brief in Washington v. DHS, No. 19-35914 (9th Cir), due on
January 2.
Respectfully submitted,
/s/ Robert Loeb
Robert Loeb
Counsel for Respondents A.A. Nettles, Sr. Properties
Limited and Eula Lambert Boyles
cc:

Counsel of Record for Petitioners (via email and overnight mail)

